                                     UNITED STATES OF AMERICA
                          FEDERAL LABOR RELATIONS AUTHORITY
                            OFFICE OF THE INSPECTOR GENERAL
                                       WASHINGTON, D.C. 20424-0001



July 13, 2009


SUBJECT: Federal Labor Relations Authority Inspector General Internal Review of FLRA
Purchase Cards.


METHODOLOGY: This Federal Labor Relations Authority Inspector General Internal
Review of FLRA Purchase Cards was conducted in accordance with the Inspector General
Reform Act of 2008, the Inspector General Act of 1978, as amended, and in compliance
with the Inspector General Counsel of Integrity and Efficiency and the Federal Labor
Relations Authority Inspector General’s updated (2009) related policies.


OBJECTIVE: The objective of this FLRA Inspector General Internal Review is to determine
the efficiency and effectiveness of the use of FLRA purchase cards and to make sure there
is no fraud, waste, abuse, or mismanagement.


REGULATIONS:


  - Office of Management and Budget (OMB) Circular A-123 (revised January 2009
  - Standards of the Government Accountability Office (GAO)
  - National Performance Review (NPR)
  - Federal Acquisition Streamlining Act (FASA)


BACKGROUND:

OMB’s Circular A-123 has guidance which contains prior guidance from Standards of the
Government Accountability (GAO) and contains standard requirements and best practices
for government charge card practices. National Performance Review (NPR) and Federal
Acquisition Streamlining Act (FASA) established a micro-purchase threshold and purchase
cards became the recommended method for making micro-purchases. The Federal
government purchase card program actually started in l982.
Because previous FLRA records no longer existed, FLRA management did not know
exactly when the FLRA purchase card program was instituted. However, the current
Director of Administrative Services Division affirmed that it existed from 2003 when she
came to the FLRA. The Office of Budget and Finances stated that they have kept FLRA
purchase files for 6 years, 7 months which also relates to 2003.

The General Services Administration manages Federal government agencies purchase
card program known as Smart Pay. Agencies can select their own purchase card services
from contracts associated with major banks. The FLRA has obtained its purchase cards
from Citibank.

Director, Administrative Services Division is the Head of the FLRA Purchase Card Program.
 Citibank currently provides the FLRA with purchase credit cards. The FLRA needs
consistent guidance on the use of purchase cards. There is currently no FLRA instruction
or documentation on purchasing. FLRA offices that have purchase cards have an
Approving Official/Purchase Card Holder.


FACTS:

FLRA purchase card holders include two employees in the Administrative Services
Division, one employee in the Office of the Executive Director (in IRM), and one employee
in each of the FLRA Regional Offices. All FLRA Headquarters employees must obtain
supplies through the Administrative Services Division.

During FY 2008, $177.744.62 was spent by the FLRA with purchase cards. In FY 2009, so
far to June 30, 2009, $89,939.38 has been spent. Files for FLRA purchases have been
kept in the Budget and Finance Office for 6 years, 7 months. The FY 2008 and FY 2009
files affirm these expenditures.

The purchase limit for micro purchases is $3,000.00 per transaction for purchase holders at
FLRA Headquarters. Regional Office purchases are limited to $2,000.00 per transaction.
All FLRA purchases are obtained through Citibank. All purchases must be documented by
the purchase holder prior to sending to the Budget and Finance Office. The Approval
Officials (Director of Administrative Services Division, Acting Executive


                                            2
Director, and Regional Directors) are responsible for questioning any concerned or
improper charges on the purchase cards.

The FLRA purchase card holders are required to submit signed purchase card statements
to the Office of Budget and Finance by the third workday of each month with all back up
documents including receipts. For the past 6 years and 7 months, there was no indication
of improper purchasing.

FLRA Regional Offices were supposed to receive $2,000.00 ($500.00 per quarter) for FY
2008 and 2009 for purchase card purchases as needed. The Washington Regional Office
only had a $250.00 budget sent for purchase cards for FY 2009 even though it should
have been $2,000.00 The Washington Regional Office Purchase Card Holder asked
Budget and Finance several times why they have only gotten $250.00 and had not gotten
a response as of June 30, 2009 regarding this issue. As a result, they are working with
minimal supplies. There was no formal budget guidance provided to the Office of
Administrative Law Judges (OALJ) in FY 2008. In 2009, the OALJ’s purchase card budget
was $1,000.00; however, it was reduced to $600 in the last adjustment.

The FLRA Information Management Technology Purchase Card Holder had an approved
budget for FY 2008 for $20,000.00 and $30,000 for FY 2009. This use is for information
technology needs such as hardware, software, annual service renewal and related
necessary supplies such as paper for printers, and ink. When the Information Management
Technology Purchase Card Holder was appointed in July 2008, he was provided
Government Purchase Training at the USDA Graduate School. Although USDA Graduate
School training software was purchased by the previous administration Executive Director,
this was not used for FLRA employees during that time.

FLRA purchase card holders had to complete some type of purchase card training before
they could use the purchase card. All cardholders must complete training on line at GSA
for new cards issued and every time a card is replaced. A copy of their course completion
is sent to the Director of Administrative Services Division. Some purchase card holders
were made aware of a notebook entitled “Purchase Cards Presented by Houseman &
Associates.” Some purchase card holders received information through Citibank cardholder
guide. In September 2006, the former FLRA Executive Director issued a memorandum
regarding local travel reimbursement expenditures but this did not relate to purchasing.

                                           3
There have been several times that some FLRA Regional Offices had to be given extra
funds to stock up on supplies because the budget for the upcoming fiscal year had not
been approved by Congress for the FLRA but most FLRA offices did not have problems in
making necessary purchases.

All FLRA purchases must be approved in advance by the FLRA Approving Official. In
FLRA Headquarters, where most of the FLRA’s purchases are made, “drawdown logs” are
used by the Administrative Services Division to ensure that the FLRA offices are spending
properly within their object class codes.

If additional purchases beyond the allocated purchase budget need to be obtained, the
purchase holder contacts their Approving Official and Budget and Finance Division for
additional adjustments.

The FLRA created a draft purchase card policy in 2003 which was never implemented. In
2007, this policy was updated and revised in 2007 but never approved or implemented by
the previous administration’s management.

The decision on who would have purchase cards was made by the former administration’s
Executive Director. Then and now, not all FLRA Offices have purchase cards or a
purchase budget.     The Administrative Services Division, Information Resource
Management Division, Administrative Law Judges Office and all FLRA Regional Offices
have purchase cards. The FLRA Authority, Federal Service Impasses Panel, Human
Resource Division, Budget and Finance Division and Office of Inspector General do not
have purchase cards to use.

No FLRA purchase card holders use their purchase cards for travel. For travel, FLRA
credit cards are used by FLRA employees. The purchase of training is authorized on
purchase cards. All training for the FLRA has to be approved by management and is
completed in the Administrative Services Division.


CONCLUSION:

Although the FLRA is handling purchase cards properly, current management needs to
update the program, its instruction and training and should consider issuing purchase cards
                                            4
to all FLRA components as well as administrative offices so that supplies that are needed
can be obtained immediately.


FINDINGS:


Finding 1.

The FLRA Authority, Federal Service Impasses Panel, Human Resource Division, Budget
and Finance Division and Office of Inspector General do not have purchase cards to use
and must go through the Administrative Services Division to obtain supplies and purchases.


Recommendation 1.

Management should provide purchase cards to all components (and Office of Inspector
General) at Headquarters instead of just to the Administrative Office and Office of
Executive Director for supplies and training funds.


Finding 2.

Purchase Card Policy created in 2003 and updated/revised in 2007 by a contractor was
never approved or implemented by prior management.


Recommendation 2.

The Administrative Services Division should update/revise the 2007 Purchase Card
instruction and submit it to the current Executive Director for approval.


Finding 3.

For FY 2009, the Washington Regional Office only received $250.00 budget for Purchase
Card purchases rather then $2,000.00. As a result all Washington Regional Office
employees are working without needed supplies.



Recommendation 3.
                                            5
FLRA management should immediately provide the Washington Regional Office necessary
2009 Purchase Card finances.




                                        6
